      Department of Homeland Security




            CBP's Management Controls 

               over Bonded Facilities 





OIG-12-25                                 January 2012

                                                        Office of Inspector General

                                                        U.S. Department of Homeland Security
                                                        Washington, DC 20528




                             JAN 6 2012 

MEMORANDUM FOR: 	            Kevin K. McAleenan
                             Acting Assistant Commissioner
                             Office of Field Operations
                             U.S. Customs and Border Protection

FROM: 	                      Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT: 	                   Final Letter Report: CBP’s Management Controls over
                             Bonded Facilities

Attached for your information is our final letter report, CBP’s Management Controls over
Bonded Facilities. We incorporated the formal comments from the U.S. Customs and
Border Protection’s (CBP) Office of Internal Affairs in the report.

The report contains four recommendations aimed at improving the vetting of bonded
facility employees. Your office concurred with all four of the report’s recommendations
and intends to use the Global Enrollment System to standardize and improve vetting of
bonded facility employees. Recommendations 1, 3, and 4 will remain open and unresolved
until we receive documentation that CBP has implemented the Global Enrollment System
and the system is meeting the intent of the recommendations. Recommendation 2 is open
and resolved, and will be closed once we receive documentation that it has been
implemented. Within 90 days of the date of this memorandum, please provide our office
with a written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please include
responsible parties and any other supporting documentation necessary to inform us about
the current status of the recommendation.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. The report will be posted on our
website.

Should you have any questions, please call me, or your staff may contact Mark Bell,
Deputy Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
Background
U.S. Customs and Border Protection (CBP) is responsible for cargo security, including
the accountability of the transfer to and storage of cargo at bonded facilities. A CBP-
approved bonded facility is a privately owned and operated building in which
merchandise may be stored or manipulated without payment of duty for up to 5 years
from the date of importation. To establish a bonded facility, a proprietor must file an
application with the local CBP port director. According to CBP’s guidance (Treasury
Directive 72-56), “Operators of cargo handling facilities should conduct employment
screening of prospective employees.”

CBP seaport threat assessments have identified the potential for terrorist exploitation,
smuggling, and internal conspiracies at bonded facilities. Between 2005 and 2008, CBP
and U.S. Immigration and Customs Enforcement’s (ICE) joint Fraud Investigative Strike
Teams conducted unannounced investigations of bonded facilities, resulting in the
detention of more than 350 undocumented individuals and the assessment of more than
170 liquidated damages claims with an estimated value of $6.3 million. These
investigations also found that the bonded facilities employed workers with outstanding
arrest warrants.

The Code of Federal Regulations (CFR) 1 grants CBP port directors the authority to
require background checks on bonded facility employees. Background checks are an
accepted management control used by government and private industry to ensure that
employees do not pose a security risk. At a minimum, an effective background check
should (1) authenticate employees and (2) compare employee background information
against agency-accepted criteria of disqualifying offenses.

Office of Management and Budget Circular A-123, Management’s Responsibility for
Internal Control, requires agencies to establish and maintain internal controls. The
objective of this audit was to determine whether CBP has effective management controls
to ensure that employees at bonded facilities do not pose a security risk. We reviewed
the effectiveness of CBP’s management controls over background checks at bonded
facilities at five ports.

Results of Audit
CBP does not have effective management controls to ensure that employees do not pose a
security risk at bonded facilities. CBP has not issued national requirements for
background checks on employees of bonded facilities and does not ensure that port
directors have management controls over background checks at bonded facilities. As a
result, background checks are inconsistent and often ineffective. This may put bonded
facilities at greater risk for terrorist exploitation, smuggling, and internal conspiracies.

1
  19 CFR §19.2(f), “As a condition of approval of the application, the port director may order an inquiry by
a Customs officer into the qualification, character, and experience of the applicant (e.g. personal history,
financial and business data, credit and personal references) . . . .”



                                                     1
Additionally, although CBP relies on ICE to conduct its background checks, ICE does
not have a national standard for how background checks must be conducted, does not
provide criteria for disqualifying criminal offenses, and does not always keep records of
investigation for employees who were screened.

Because CBP does not provide requirements or minimum standards for conducting
background checks, the quality and effectiveness of employee background checks vary
from port to port. Specifically—

       CBP does not require bonded facilities to perform background checks on
       employees prior to hiring or on a periodic basis.
       CBP does not require record keeping for background checks performed.
       CBP has not defined the types of criminal offenses that would disqualify a job
       applicant from employment at a bonded facility.
       CBP does not enable port directors to authenticate the identity of employees using
       fingerprint analysis.
       CBP has not provided guidance on what law enforcement systems must be used to
       vet employees. Thus, ports run background checks against different law
       enforcement systems, with a wide variance of results.
       CBP does not ensure that all ports assess the background check process or results
       as part of its internal compliance reviews.

CBP’s record keeping for bonded facility background checks was inconsistent and
incomplete among the ports we visited. We identified 41 bonded facilities in these port
locations for our review, requested a current list of employees, and received 777 names.
Using CBP’s files, we attempted to verify whether all of those bonded facility employees
had received a background check. However, due to the incomplete and inconsistent
information, we were unable to determine if employees at the bonded facilities received a
background check or if applicants for employment were not hired because of a criminal
background.

To better understand the level of risk that unscreened employees may pose to the port and
other employees, we selected 203 employees currently working at the 41 bonded
facilities. Our team worked with Office of Inspector General (OIG) investigators to
compare the names, dates of birth, and Social Security numbers with information in a
Federal Bureau of Investigation (FBI) database. Twenty-four employees had a prior
record for offenses ranging from minor violations to serious violations such as drug
trafficking, attempted murder, alien smuggling, kidnapping, possession of stolen vehicles,
possession of weapons, and aggravated assault and battery. Because neither CBP nor
ICE has standard policies and procedures for background checks, including criteria for a
disqualifying criminal offense, these individuals were employed at the bonded facilities
during the time of our review.




                                            2
According to OIG investigators, organizations should include a 10-point fingerprint
analysis to authenticate a background check. However, CBP suspended the practice of
fingerprint analysis in 2007 because of funding limitations. Despite this suspension, two
of the ports we tested continue to collect fingerprint cards from bonded facilities. A
background check without fingerprint analysis will not guard against individuals with
aliases, same dates of birth, or similar Social Security numbers.

Law enforcement authorities said an effective background should include checks of the
National Crime Information Center (NCIC). An NCIC check would also reveal whether
the individual is on the FBI’s terrorist watch list. We noted during our review that port
staff did not always know what type of information a standard NCIC check includes.
Some ports were unaware that the NCIC included a check against the Known or
Appropriately Suspected Terrorist File and the Immigration Violator File.

One of the primary mechanisms for oversight of bonded facilities is CBP-scheduled
compliance reviews. Although CBP conducts compliance reviews to verify transactions,
records, procedures, conditions, and inventory, these reviews do not verify whether
employee lists were accurate and complete and whether background checks were
conducted. During our review, we noted discrepancies between the current employee
lists retained by CBP’s Entry Department and CBP’s Compliance team.

We did identify a potential best practice at the port of Newark, where CBP’s port
compliance team recently updated its procedures. Before conducting a compliance
review, the team sends a letter to the bonded facility to request the current employee list.
The port’s Entry Department also sends reminders to the bonded facility to submit
updated employee lists to CBP as required by federal regulations. This practice ensures
that CBP is aware of who is working at its bonded facilities so that background checks
may be conducted on new employees.

CBP acknowledged that the bonded facility employee screening process can be improved
and has begun a pilot program called the Global Enrollment System (GES) that leverages
an existing vetting system within its trusted traveler programs. CBP has not yet issued final
guidance on how GES will be used. CBP needs to establish clear policies and procedures
on how to conduct background checks of bonded facility employees and how the ports can
provide adequate implementation and oversight. Consistent hiring policies and procedures
would alleviate local interpretation of what constitutes a disqualifying offense and prevent
the employment of dangerous criminals at bonded facilities.

Recommendations
We recommend that CBP’s Cargo Control Branch Chief—

   1.	 Establish and implement nationwide standardized policies and procedures for
       conducting background checks at bonded facilities, including how CBP plans to
       coordinate with ICE concerning the roles and responsibilities of all parties
       involved.


                                              3
   2.	 Provide port directors with a list of criminal offenses that disqualify a job 

       applicant from employment at a bonded facility.


   3.	 Implement a process to ensure that CBP receives and retains background check
       records, including employee lists and results of background checks.

   4.	 Expand compliance reviews to include bonded facility employee background
       check results and updates, and reconcile compliance review results with CBP
       bonded facility file information.

Management Comments and OIG Analysis
CBP concurred with all four of the report’s recommendations and intends to use GES to
standardize and improve vetting of bonded facility employees. Recommendations 1, 3,
and 4 will remain open and unresolved until we receive documentation that CBP has
implemented GES and the system is meeting the intent of each of the recommendations.
Recommendation 2 is open and resolved, and will be closed once we receive
documentation that it has been implemented.

In its response, CBP did not agree that the perceived deficiencies in CBP’s management
controls over bonded facilities, and specifically the background checks conducted for
bonded facility employees, creates a greater risk for terrorist exploitation, smuggling, and
internal conspiracies at these facilities to the degree implied in the draft report.

Although we acknowledge that CBP has a layered approach to cargo security and many
security risks are mitigated through cargo targeting and inspections before the cargo
arrives at a bonded facility, over the past few years OIG and the Government
Accountability Office have noted several concerns with CBP’s targeting and inspection
of cargo. Additionally, multiple ICE investigations and CBP threat assessments have
identified numerous illegal aliens and individuals with criminal backgrounds working at
bonded facilities, which poses a potential risk.

Finally, CBP’s own seaport threat assessments have identified the potential for terrorist
exploitation, smuggling, and internal conspiracies at bonded facilities. OIG reviews and
ICE investigations point to the need for additional vetting of bonded facility employees to
ensure that they do not pose a risk to the port, the cargo, or other bonded facility
employees. Since CBP is taking steps to implement GES and plans to identify offenses
that would disqualify individuals from employment at a bonded facility, we believe that
most of the vulnerabilities noted in our report will be addressed once the
recommendations are fully implemented.




                                              4
Appendix A
Purpose, Scope, and Methodology

The objective of this audit was to determine whether CBP has effective management
controls to ensure that employees handling cargo at bonded facilities do not pose a
security risk. The scope of our audit included 5 ports and 41 bonded facilities from
approximately 2,054 2 bonded facilities and 327 seaports nationwide.

To address our objective, we met with various CBP headquarters and field officials,
reviewed CBP policies and procedures, and obtained and analyzed documents pertinent
to CBP’s process in conducting background checks at the bonded facilities. In addition,
we selected a sample of ports that processed the highest volume of containers, and
selected additional ports as a representative sample of different locations. Those ports
were Los Angeles/Long Beach, California; Newark, New Jersey/New York, New York;
Norfolk, Virginia; Houston, Texas; and Miami and Port Everglades, Florida.

At each port, we interviewed CBP officials, ICE officials tasked to conduct background
checks for CBP, and bonded facility proprietors. We tested a judgmental sample of 41
bonded facilities that included Bonded Warehouses, Foreign Trade Zones, and
Centralized Examination Stations by reviewing documents related to background checks
and observing facility operations.

To determine whether the 777 employees working at the 41 bonded facilities during the
time of our review had received a background check, we attempted to compare and verify
background check information from ICE and CBP. However, due to incomplete and
inconsistent information in CBP’s files, we were unable to determine if employees at the
bonded facilities received a background check or if applicants for employment were not
hired because of a criminal background.

To better understand the level of risk that unscreened employees may pose to the port and
other employees, we selected 203 of the 777 employees currently working at bonded
facilities. Our team worked with OIG investigators to compare the names and Social
Security numbers with information in a FBI database.

We conducted this performance audit between December 2010 and November 2011
pursuant to the Inspector General Act of 1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based upon our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objectives. We appreciate the cooperation by CBP management and staff
in providing the information and access necessary to accomplish this review.




2
  According to CBP, there are many different types and classes of bonded facilities. The 2,054 bonded
facilities comprise 57 Centralized Examination Stations, 1,490 Bonded Warehouses, and 507 Foreign Trade
Zones.


                                                    5
Appendix B
Managements Comments to the Draft Letter Report
                                                                                  1100 hOD'I'!>""!' "'...,oue NW
                                                                                  W..h.inglon, DC 20229


                                                                      ~           US.Customsand
                                                                      •           Border Protection
                                                                                 AuguSl 25, 2011



          MEMORANDUM FOR Al'l"NE L. RICHARDS
                         ASSISTANT INSPECTOR GENERAL FOR AUDITS
                         DEPARTMENT OF HOMELAND SECURITY

          FROM:                     AssistamCommissioner ~ ~.f\_/2
                                    Office of Internal Affairs       ~. ~
                                    U.S. Customs and Border Pro eclion

          SUBJECT:                  Response 10 lhe Office of Inspector General's Drafl Report
                                    Enlitled, "Efficacy ofCBP's Management Controls Ol'er
                                    Bonded Facilities"




          As a preliminary maller, lhe entry of merchandise into bonded warehouses and lhe
          safeguarding of sueh merchandise in the bonded warehouses is primarily a revenue
          funClion because. with few exceptions, U.S. Customs and Border Protection (CBP) lakes a
          number of aClions to screen merchandise for sccurily threats prior to its movement inlo a
          honded facilily. This is done through the nomlal inspection process, which includes
          screening for radiation. that occurs at lhe port of enlry beforc merchandise is released to a
          honded carrier for lransportation to a warehouse. Once the merchandise reaches lhe
          bollded facilily, .... hich has physical and custodial security measures in place to preveD!
          merchandise from being diverted or stolen, the bonded ....'arehouse facility and its
          employees are responsible for ;ts safekeeping. CBP believes that the custodial bond,
          which re<.Juires the bonded warehouse to properly Slore and proteClthe merchandise. is an
          adequate measure to ensure the safekeeping oflhe merchandise and provides sufficient
          recourse 10 recover any lost revenue resulting from a failure to adequately protect and
          Slore the merchandise. Moren,'er, the abilily ofCBP to assess liquidated damages under
          the hond acts as an incentive for bonded facility operators 10 ensure lhat the merchandise
          is kepI safe and is a deterrent against warehouse employees engaging in illegal activities
          affccting the stored merchandise. Sinee any illegal aClS by lhc bonded warehouse
          employees concerning the stored merchandise can result in liquidated damages against the
          warehouse operalor or proprielor, there is a buill-in incentive for the warehouse operators
          and proprietors 10 manage and conlro! their employees and hire only those they consider
          lrustworthy. For these reasons. CBP does not aj;\ree tllal the perceived deficiencies in
          exploilation. smuggling, or internal conspiracies al these facilities 10 lhe degree implied in
          lhe draft report.

          The report contains four recommendations directed to Cilp. A summary ofCllp actions
          and corrective plans to i\ddress the recommendations is provided below:

          Rcconllncndal;on IiI: Establish and implement nalion .....ide Stal1dardi7.ed policies and
          procedun:s for conducting background checks al bonded facililies, including how CBP
          plans to coordinate with ICE concerning tlte roles and n:sponsibilities ofall parties
          involved,

          CBI' Ik~p(Hlsc: Concur. Bonded facilily owners are now l'Cl:Iuired by 19 CFR 19.3(0.1) and
          19 CFR 146.7(11.) to submit a ""Titlen list of their employces names, addresses, social
          security numbers. and dates and places of birth of all persons employed by the facility 10
          the CBP port director .....ithin 30 days after the dale of demand. Once CBp's Global
          Enrollment Syslcm (GES) is operational. CBP will takc lhat infonnalion and enler it into
          the system. The GES ,oetting module .....ill run the infonnation through SC"er<l1 databases
          and will allow CBp to s...e the results of those checks. With the de"elopmcll! of the
          Trusted Worker Program ..... ithin the GES, ICE would be: remo"ed from the background




                                                              7

Appendix B
Managements Comments to the Draft Letter Report
          investigation/vetting process entirely. Once GES is operational, policies and procedures
          will be issued by CBP's Office ofField Operations.

          Completion Date: January 1, 2012

          Recommendation #2: Provide port directors with a list of criminal offenses that
          disqualify ajob applicant from employment at a bonded facility.

          CBP Response: Concur. CBP concurs with the recommendation to develop a list of
          criminal offenses that disqualify bonded facility principals, bonded facility operators and
          those individuals with access to inventory control systems (i.e. record keepers) from
          employment at a bonded facility.

          Completion Date: January 1,2012

          Recommendation #3: Implement a process to ensure that CBP receives and retains
          background check records, including employee lists and results of background checks.

          CBP Response: Concur. As part of the GES Trusted Worker Program being developed,
          records will automatically be retained on all current employees. These records will be
          automatically vetted on a daily basis. 19 CFR 19.3(d) and 19 CFR l46.7(g) requires
          bonded warehouse owners to submit a list of the names, addresses, social security
          numbers, and dates and places of birth of all persons employed by the facility. CBP notes
          that there may be Privacy Act implications for retaining background check records,
          employee lists, and results of background checks not already covered by existing Systems
          of Record Notifications (SORi'-Js). This recommendation should take into consideration
           the potential violations of the Privacy Act, 5 U C 552a, which may be triggered by
           releasing individuals' background records to employers (bonded facility operators), as
           well as others. Bonded facility operators may need to obtain Privacy ct
           waivers/authorizations from potential employees for this purpose prior to background
           investigations being performed.

           Completion Date: January 1,2012

           Recollllllendation #4: Expand compliance reviews to include bonded facility employee
           background check results and updates, and reconcile compliance review results with CBP
           bonded facility file information.

           CBP Response: Concur. GES will be uscd as the new platform for CBP vetting of
           bonded facility employees. The focus of the veiling procedures are the principals, owners,
           operators and those individuals with access to inventory control systems (i.e. record
           keepers). The results of the veiling will be stored in GES for use during compliance
           reviews. While CBP concurs with this recommendation, CBP notes that the purposc of
           compliance reviews is to allow CBP Officers a mechanism to physically examine and
           verify transactions, records, procedures, conditions, and inventory and accounting controls
           lhat deal with revenue protection and not with employee background check results. Also,
           the bonded facility program is a revenue issue and is not a security program. Compliance
           reviews are conducted on a schedule based on the facilities revenue risk assessment.

           Completion Date: January 1, 2012

           With regard to the sensitivity of the draft repol1, CBP did not identify any sensitive
           information that would require a "For Official Use Only" designation or wan'ant
           protection under the Freedom oflnformation Act. Technical comments to the draft report
           are provided in an attachment to this letter.

           Jfyou have any questions regarding this response, please contact me or have a member of
           your staff contact Ms. A hley Boone, BP Audit Liaison, at (202) 344-2539.

           Attachment




                                                        8

Appendix C
Major Contributors to this Report

                    Paul Wood, Director, Trade Operations and Security
                    Shelley Howes, Audit Manager
                    Jeffrey Wilson, Team Lead
                    Robert Edwards, Senior Auditor
                    Andre’ Marseille, Program Analyst
                    Jeff Mun, Program Analyst
                    Dianne Leyva, Program Analyst
                    James Gaughran, Deputy Assistant Inspector General for
                      Investigations
                    Harold Grasman, Special Agent in Charge
                    Joseph Ferrigno, Criminal Investigator
                    Roger Thoet, Referencer
                    Lisa Vonder Haar, Referencer




                                        9
Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      U.S. Customs and Border Protection

                      CBP Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                           10
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
